<html>
<title> - OPEN FORUM ON HUMAN RIGHTS AND RULE OF LAW IN CHINA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
          OPEN FORUM ON HUMAN RIGHTS AND RULE OF LAW IN CHINA

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 8, 2003

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                    U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
90-434 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

            House                                   Senate

   JIM LEACH, Iowa, Chairman              CHUCK HAGEL, Nebraska, Co-Chairman                                   
   DOUG BEREUTER, Nebraska                CRAIG THOMAS, Wyoming                                   
   DAVID DREIER, California               SAM BROWNBACK, Kansas                                   
   FRANK WOLF, Virginia                   PAT ROBERTS, Kansas                                   
   JOE PITTS, Pennsylvania                GORDON SMITH, Oregon                                   
   SANDER LEVIN, Michigan                 MAX BAUCUS, Montana                                   
   MARCY KAPTUR, Ohio                     CARL LEVIN, Michigan                                   
   SHERROD BROWN, Ohio                    DIANNE FEINSTEIN, California                                   
   DAVID WU, Oregon                       BYRON DORGAN, North Dakota                                               



                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State*
                 GRANT ALDONAS, Department of Commerce*
                   LORNE CRANER, Department of State*
                   JAMES KELLY, Department of State*

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

* Appointed in the 107th Congress; not yet formally appointed in 
  the 108th Congress.

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Seyet, Kaiser, the Uighur American Association, Woodbridge, VA...     2
Marsh, Terri, human rights attorney, Washington, DC..............     3
Cooper, Timothy, Worldrights, Washington, DC.....................     5
Huang, Ciping, given by Wei Wu, the Wei Jingsheng Foundation, 
  Washington, DC.................................................     6

                                APPENDIX
                          Prepared Statements

Seyet, Kaiser....................................................    22
Marsh, Terri.....................................................    23
Cooper, Timothy..................................................    25

                       Submissions for the Record

Prepared statement of Ciping Huang, executive director, Wei 
  Jingsheng Foundation and human rights chair, Independent 
  Federation of Chinese Students and Scholars (IFCSS), 
  Washington, DC.................................................    28
Prepared statement of Kery Wilkie Nunez, Washington, DC..........    31


          OPEN FORUM ON HUMAN RIGHTS AND RULE OF LAW IN CHINA

                              ----------                              


                       MONDAY, SEPTEMBER 8, 2003

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:30 
p.m., in room 2200, Rayburn House Office Building, John Foarde 
[staff director] presiding.
    Mr. Foarde. On this beautiful fall afternoon, we do not 
have as many of our staff colleagues as we like. I am sure that 
some will come along in the next few minutes to join us.
    But on behalf of Congressman Jim Leach of Iowa, the 
chairman of the Congressional-Executive Commission on China 
[CECC], and our co-chairman, Senator Chuck Hagel of Nebraska, 
as well as the individual Commission members, I would like to 
welcome all of you, and particularly our four panelists, to 
this issues roundtable of the CECC.
    Today's roundtable is conducted in the ``Open Forum'' 
format. We try to do this once or twice a year to permit people 
who have things to say about issues in our mandate on human 
rights and on the rule of law in China the opportunity to speak 
for about 5 minutes, offer us a written statement for the 
record, and then, as we do with our other roundtables, and also 
hearings, have a chance for us to ask questions and hear 
answers from the individual speakers.
    We have four speakers today representing a variety of 
points of view and issues. I will introduce them all, and then 
individually before they speak. We will let you go for about 4 
minutes, then I will tell you that there is 1 minute left. That 
is your signal to wrap up your presentation.
    Inevitably, it is hard to say everything that you want to 
say in 5 minutes, because it is not a very long time. But we 
will try to give you the opportunity during the question and 
answer period to catch up any of the issues that you wanted to 
mention and did not have the opportunity in your main 
statement.
    Our speakers this afternoon are Mr. Kaiser Seyet from the 
Uighur American Association, Ms. Terri Marsh, a human rights 
attorney, Mr. Timothy Cooper from Worldrights, and our old 
friend Huang Ciping from the Wei Jingsheng Foundation, who had 
travel problems this afternoon and is probably not going to be 
able to join us in person, but a colleague is going to read her 
statement for her into the record. We welcome you and thank you 
for doing that.
    Let us go right to the statements then. We normally work 
wall to window, so we will ask Mr. Kaiser Seyet from the Uighur 
American Association to begin, please.

  STATEMENT OF KAISER SEYET, THE UIGHUR AMERICAN ASSOCIATION, 
                         WOODBRIDGE, VA

    Mr. Seyet. Thank you very much. Good afternoon, ladies and 
gentlemen. Thanks for the opportunity to speak on behalf of the 
Uighur community in the United States.
    My topic today is ``Escalating Refoulement of Uighur 
Refugees.'' The Uighur American Association is deeply concerned 
about the rising number of peaceful Uighur dissidents being 
returned to the People's Republic of China [PRC] from other 
countries.
    Although media attention has raised concerns about the 
deportation of Tibetan refugees from Nepal and caused 
governments to act, no such attention has been paid to the 
escalating phenomena of peaceful dissidents being returned from 
Central Asian states and Pakistan under pressure from the 
Chinese Government.
    Before the formation of the Shanghai Cooperation 
Organization [SCO] Chinese diplomats would bring accusations of 
criminal wrongdoing against Uighur refugees and seek their 
deportation. Wanted posters in Chinese and the local language 
were posted on the streets in many cities.
    The pressure employed against the refugees and their place 
of refuge can be summed up with this excerpt from a 1996 
internal Chinese Communist Party document.

    Limit the activities of outside ethnic separatist 
activities from many sides. Bear in mind the fact that Turkey, 
Kazakhstan, and Kyrgyzstan are the home bases for the 
activities of outside separatist forces. Through diplomacy, 
urge these countries to limit and weaken the activities of 
separatist forces inside their border. Take full advantage of 
political superiority to further develop the bilateral friendly 
cooperation with these countries. At the same time, always 
maintain pressure on them. Considering the ethnic separatism 
activities outside the border, carry out all necessary dialog 
and struggle. Strengthen the investigation and study outside of 
the border. Collection information on the related development 
directions of events, and be especially vigilant against and 
prevent, by all means, the outside separatist forces from 
making the so-called ``Eastern Turkestan'' problem 
international.

The Chinese Communist Party Central Committee Document Central 
Committee (1996) No. 7. Record of the Meeting of the Standing 
Committee of the Political Bureau of the Chinese Communist 
Party concerning the maintenance of Stability in Xinjiang.

    When the SCO was formed, official contacts started in the 
Central Asian war on terrorism. At that point, the campaign 
against ``East Turkestan separatists'' had not been 
internationalized, but dissidents quietly continued to be 
arrested and returned to face imprisonment, torture, even 
death, just for leaving the People's Republic of China.
    After the events of September 11, 2001, and the beginning 
of the U.S. war on terrorism, Chinese Government officials 
began to equate the peaceful expression of thought with 
terrorism. In many official Chinese Government statements, 
terrorism, and separatism appear side by side as crimes to be 
fought.
    The criminalization of peaceful ideas is not condoned by 
the U.S. Constitution, nor any international body or agreement, 
yet such a tactic is used to repress dissidents in countries 
that neighbor the People's Republic of China. The entire 
process should be viewed as an extension of the Chinese 
Government police state.
    The Convention Against Torture and Other Cruel, Inhuman, or 
Degrading Treatment or Punishment provides that ``no State 
Party shall expel, return (``refouler''), or extradite a person 
to another state where there are substantial grounds for 
believing that he would be in danger of being subjected to 
torture.''
    The Uighur American Association recommends that the U.S. 
Government, in its official dealings with Central Asian states, 
including Pakistan, Nepal, Kazakhstan, and Kyrgyzstan, 
reinforce the ideal of the rule of law, namely the principle of 
non-refoulement with regard to people escaping persecution and 
oppression from the People's Republic of China; raise concerns 
about the treatment of refugees and their rights as guaranteed 
under the Universal Declaration of Human Rights; raise the 
issue for forced repatriations, the abuse of human and civil 
rights before the proper U.N. bodies; and press for meaningful 
reform and change within the People's Republic of China such 
that so many do not feel compelled to flee their homeland.
    Thank you very much.
    [The prepared statement of Mr. Seyet appears in the 
appendix.]
    Mr. Foarde. Thank you very much for your statement.
    Next, we would like to hear from Ms. Terri Marsh, a human 
rights attorney. I understand you are here representing Falun 
Gong.
    Ms. Marsh. Yes.
    Mr. Foarde. Please.

STATEMENT OF TERRI MARSH, HUMAN RIGHTS ATTORNEY, WASHINGTON, DC

    Ms. Marsh. Thank you. Thank you for having me here.
    The talk is entitled, ``The Rule By Law in China Today'' 
and its impact on Falun Gong.
    According to Jerome Cohen in his ``The Plight of the 
Criminal Defense Lawyers'' presented to this Commission on July 
26, 2002, China's entire criminal process is in need of radical 
reform.
    In his view, ``A radical, long-run political restructuring 
would be necessary to bring the PRC's criminal process into 
compliance with even minimal international standards.''
    A cursory look at Professor Jerome Cohen's piece allows us 
to see that there are basically two problems that he 
identified. On the one hand, he notes how the practice of 
criminal law in China itself violates the body of law, that is, 
the Constitution, the penal code, prison law, police law, and 
so on.
    One example would be that interrogation of arrested persons 
and torture is, of course, prohibited by both the Constitution 
in China and by police law, and nonetheless it is fairly 
commonplace in China for persons who have been arrested, and 
most notably Falun Gong practitioners, to be tortured.
    On the other hand, and in addition to the violation of 
Chinese law, the People's Republic of China typically 
promulgates administrative orders, notices, regulations, 
explanations, and the like which create exceptions to the 
already drafted rules of law.
    These exceptions put disfavored classes--for example, Falun 
Gong--at a disadvantage for securing the rights the state 
acknowledges that they have. Again, examples abound. I welcome 
you to look at the printed copy of my statement.
    Just to mention one, which is supported by a handout that 
is outside. Falun Gong practitioners are denied access to legal 
counsel by an announcement which was promulgated by the 
Judicial Bureau of Beijing City. There are lots more examples, 
some of which I will turn to in a few moments.
    These two types of defects in China are highlighted, 
although not in reference to China per se, by Ronald Dworkin in 
his landmark book, ``A Matter of Principle,'' in chapter 2, 
where he distinguishes between two conceptions of the rule of 
law, both of which are conspicuously absent in China.
    The rule-book conception, and I am just going to read you a 
quote from Dworkin at this point, insists that

    The power of the state not be exercised against individual 
citizens except in accordance with rules which are explicitly 
set out in a public rule-book, which is, of course, available 
to everyone.
    The government, as well as ordinary citizens must play by 
these rules until they are changed in accordance with further 
rules about how they ought to be changed, which is also to be 
set forth in the rule-book.

    This narrow conception is not concerned with substantive 
justice, but rather with rules.
    There is a second formulation also highlighted by Ronald 
Dworkin in chapter 2 of ``A Matter of Principle.'' The second 
formulation permits us to further evaluate state law to see if 
it is 
consistent with minimal international standards of law, but 
more importantly it allows us to distinguish, for example, 
between a rule of law, and then the rules promulgated, for 
example, by the Nazis during World War II.
    This latter formulation additionally illustrates how, in 
fact, what is packaged in China as a rule of law is in fact a 
rule by law.
    I will just give you some examples in China of how this 
works. For example, in terms of promulgation of orders, 
notices, and whatnot which create exceptions which prevent 
people from benefiting from the existing law, we know that by 
order of former President Jiang, the police arrested Falun Gong 
practitioners in April 1999 without any legal basis.
    Then the former president himself defined the crimes 
retroactively by trying to persuade the French newspaper, 
Figaro, that Falun Gong is, indeed, an evil cult.
    Then in October, the legislative branch passed out the 
infamous anti-cult law to legitimate the illegal arrests by 
outlawing Falun Gong.
    Finally, the Supreme People's Court, instead of ruling on 
cases, expounds on the nature of Falun Gong by issuing a notice 
declaring, at the behest of Jiang, that Falun Gong is indeed an 
evil cult. So we can see from this that Falun Gong 
practitioners are guilty prior to their trials.
    I guess I should apologize a little bit for failure to 
utilize my time well.
    [The prepared statement of Ms. Marsh appears in the 
appendix.]
    Mr. Foarde. That is all right. We can come back to other 
points that you have during the question and answers.
    Next, let us call on Mr. Timothy Cooper from Worldrights. 
Perhaps you would tell us a little bit about your organization 
as you get started. It is very interesting. Thank you.

    STATEMENT OF TIMOTHY COOPER, WORLDRIGHTS, WASHINGTON, DC

    Mr. Cooper. I will, indeed. I want to express my 
appreciation to the Commission for allowing non-governmental 
organizations [NGOs] to come before it to testify on critical 
issues of human rights in China.
    I am representing here today the family of Dr. Wang 
Bingzhang, who was recently sentenced to life imprisonment in 
China on charges of espionage and terrorism. They extend their 
appreciation to this Commission and wish that, in fact, they 
could be here to testify.
    Dr. Wang Bingzhang is known as the father of the overseas 
democracy movement. He has been associated with it, in fact 
pioneered it, some 20 years ago. He was trained as a lung 
surgeon. He studied at McGill University, earned his Ph.D. 
there in coronary arterial research. He decided not to practice 
medicine, and 
famously stated that ``medicine can only cure a few patients, 
but cannot cure the disease of a nation.''
    He ventured into Vietnam in June 2002, to meet with a 
number of labor leaders associated with the ever-rising labor 
movement inside China. He went there to, in effect, try to make 
a marriage, a union if you will, between the pro-democracy 
movement and the labor movement inside China, to marry the head 
of the democracy movement with the body politic of the labor 
movement, a reasonable strategy in light of the need to amplify 
the numbers committed to the pro-democracy movement in China.
    Once in Vietnam, he did, in fact, meet with a labor leader 
in the town of Mongcai, which is on the border of Vietnam and 
China. After that meeting was complete, they noticed that they 
were being followed.
    They went back to their hotel to retrieve their baggage so 
that they could depart that area of the country as soon as 
possible. They were, at that point, accosted in the hotel lobby 
by plainclothes Vietnamese police--or people who posed as 
Vietnamese police--and were taken into a van under false 
pretenses.
    They were told they were being taken to the police station 
in Mongcai, but in fact were taken to the outskirts of town, to 
the Beilun River, which cuts between China and Vietnam, where a 
boat was waiting for them.
    They were beaten, particularly Dr. Wang Bingzhang, taken on 
board this boat, and taken over to the China side where they 
were met by an entirely new group of individuals, about 10 men.
    There had been about 10 men in the lobby, most of whom 
spoke Vietnamese, 2 of whom spoke Chinese, most interestingly. 
They were greeted by this new set of people.
    It was noted that one of the original captors had a picture 
of Dr. Wang Bingzhang in his possession that he proudly showed 
to the others to confirm Dr. Wang Bingzhang's identification, 
and they were handed over to this new group.
    They were then blindfolded, bound, and taken to a hotel for 
about a week where a $10 million ransom was demanded of the 
three Chinese dissidents. No stranger idea, I think, could be 
put out there than a kidnapper demanding such a high ransom 
from Chinese dissidents. If one is associated in any way with 
the Chinese democracy movement, one understands clearly that it 
is virtually penniless.
    Having no money, the dissidents offered the contact 
numbers, their cell phone numbers, for their family and 
relations back in America, France, and elsewhere. Those 
individuals were never 
contacted.
    About a week later, the new captors took them to a temple, 
bound, still gagged, and left them. Mysteriously, several 
minutes later, the Chinese police arrived and said, ``We are 
here, we are rescuing you.'' But instead they were immediately 
detained. They were never released. In fact, from that point 
on, they met a new form of detention.
    They were then held incommunicado for about 5\1/2\ months 
while the Chinese Government emphatically denied that they had 
any information whatsoever about their whereabouts.
    Finally, Yue Wu and Zhang Qi were released, but Dr. Wang 
Bingzhang was put on trial for espionage and for terrorism.
    He has denied his association with any of those activities. 
He declared himself wholly innocent. In fact, when the United 
Nations' Arbitrary Detention Committee looked at this case, 
they came to the same conclusion, that the Chinese Government 
had offered no proof whatsoever that Dr. Wang was associated in 
any way with either espionage or terrorism.
    Indeed, the U.N. Working Group on Arbitrary Detention 
declared that the Chinese Government had arbitrarily detained 
these individuals, that the detention was a violation of 
international norms, and that Dr. Wang Bingzhang should be 
released.
    Speaking on behalf of the family, we implore the U.S. 
Congress to pass a joint resolution on his behalf. It is high 
time that the United States stood behind a man who has 
committed most of his adult life, certainly the best years of 
his life, to the cause of human rights and democracy in China. 
We would simply ask that the Congress look at this issue and 
determine its resolve, and pass a resolution on his behalf. 
Thank you.
    [The prepared statement of Mr. Cooper appears in the 
appendix.]
    Mr. Foarde. Thank you very much, Mr. Cooper.
    Our friend and frequent contributor to our open forums, Ms. 
Huang Ciping, cannot be with us because of travel problems, so 
her colleague is going to read her statement.
    But would you introduce yourself for the record, please?

 STATEMENT OF HUANG CIPING, GIVEN BY WEI WU, THE WEI JINGSHENG 
                   FOUNDATION, WASHINGTON, DC

    Mr. Wu. Yes. Ladies and gentlemen. I am speaking on a 
statement of Huang Ciping on behalf of the Wei Jingsheng 
Foundation and the Independent Federation of Chinese Students 
and Scholars.
    The topic of the speech is ``No Press Freedom in China 
After SARS.''
    Early last spring, the Chinese press got unexpected world 
attention because of SARS. World opinion had increased hope for 
Chinese press freedom. The sad reality is that China has not 
gained more press freedom since SARS.
    In June 2003, the Chinese Communist Party criticized more 
than 10 newspapers and magazines. Afterward, some sensitive 
articles had to be killed before publishing. The prohibited 
topics included SARS, the North Korean nuclear crisis, the 
nuclear submarine explosion, and the Zhou Zhengyi corruption 
case in Shanghai.
    Also, in the summer the government clearly stated 
prohibition to discuss certain issues, such as modifying the 
Constitution, political reforms, and the 1989 Tiananmen 
democracy movement.
    China has a long way to go toward real press freedom. The 
root of the problem lies in the system, which has been there 
for over half a century under the CCP rule. The following facts 
are some of our highest concerns.
    First, there is no real private press in China and no 
independent journalism under the one party system of the CCP. 
The registration of a publication is very complicated. The 
government, at any time, can easily crush a newspaper if it 
violates government regulations, or just displeases some 
officials.
    Second, Internet censorship. In China, many Web sites are 
blocked. The government has over 300,000 Internet police, 
50,000 of them work directly for the National Security 
Department.
    Liu Di, a Chinese college student, has been detained for 
months because of some essays she published in a chat room. 
One-third of all foreign mails went through inspections beyond 
even targeted mails, and phone tapping is public knowledge in 
China.
    Third, brave journalists and liberal editors often get in 
trouble, and some are put in prison just because they report 
the truth or speak from conscience. In fact, Chinese 
journalists are the direct victims under the Chinese Communist 
rules. Many of them have lost their freedoms, or even lives.
    Fourth, to survive, one must speak the Party's tongue. Keep 
the same tongue with the Party, is the first rule for all 
Chinese journalists.
    Fifth, China has been reported to be the second worst 
country for freedom of press and speech. The biased, 
misleading, even false information serves only the Chinese 
Government's agenda. On sensitive issues, only the government 
has the right to decide if the news can be made public.
    Sixth, the Chinese people do not trust the news if it is 
presented by the Chinese Government. Chinese people do not have 
faith in the Chinese Government. They know that their 
government cheats. Chinese people usually rely on the BBC, 
Voice of America, Radio Free Asia, or other overseas media.
    Finally, foreign investment and Internet will not bring 
free press to China. On one hand, many argue that foreign 
investment will bring freedom, including freedom of the press 
to China. On the other hand, the Chinese Government pointed out 
that the news media is a special enterprise that does not allow 
the rule of ``who invests in it owns it.''
    The government specifically stated that the news media is a 
State enterprise which applies to all newspapers. A similar 
idea 
applies to the Internet. The Internet and advanced computer 
technology has become the tool for government monitoring and 
suppression of dissent.
    It is a shame that U.S. companies such as Yahoo! cooperate 
voluntarily with the Chinese Government. It is more a shame for 
Western companies to work closely with the Chinese Government 
to create the ``Golden Shield'' which helped make the Chinese 
Government policing of the Internet the best in the world.
    Here, we urge the freedom- and democracy-loving American 
people and the U.S. Congress to examine these issues and to 
prevent moneymaking deals when the price is the Chinese 
people's human rights and freedom.
    [The prepared statement of Ms. Huang Ciping appears in the 
appendix.]
    Mr. Foarde. Thank you very much, Mr. Wu Wei, on behalf of 
Huang Ciping.
    Thanks to our other panelists this afternoon. It is very 
important for the Commission, and the Commission staff, 
particularly, to get to know people who are working on human 
rights issues for prominent NGOs and to hear the information 
that you have, and the arguments that you have put together.
    So, having an open forum like this is particularly useful. 
The transcript of it is widely circulated among the 
commissioners, and we appreciate your spending the time not 
only to come this afternoon, but to prepare.
    I am going to give you just a minute to catch your breath 
while I mention a couple of administrative matters.
    Our next major public event of the full Commission is a 
hearing on September 24 entitled, ``Is China Playing By the 
Rules: Free Trade, Fair Trade and WTO Compliance.'' This 
hearing will look into the commercial rule of law and WTO 
compliance part of our mandate.
    The hearing will be on Wednesday, the 24th at 10:30 a.m. in 
the Dirksen Senate Office Building, Room 419. Chairman Jim 
Leach will preside.
    In addition, on Monday, September 22 at 2:30 p.m., we will 
have an issues roundtable on ``Internet Freedom and Free Flow 
of Electronic Information in China.'' I do not have a room to 
tell you yet, but please continue to consult the CECC Web site 
at www.cecc.gov. On the Web site, you can sign up for our 
mailing list if you want to get e-mails with these 
announcements from us.
    Also, our statute requires that we file a report on the 
activities of the Commission and on human rights and the 
development of the rule of law in China every year. The report, 
formally, is due on October 9 every year, but for reasons of 
scheduling we try to release it a little earlier than that.
    Again, this year, we hope to release it at a press 
conference on October 2, which I believe is a Wednesday, right? 
Yes, a Wednesday. Again, I do not have a room for you yet, but 
we are working on that. We will make a public announcement 
about the availability of the annual report.
    Of course, it will be available in PDF format on our Web 
site for you to download freely during the year if you should 
need it again.
    I would like to go now to the question and answer session 
and allow each of our speakers to amplify their thoughts a 
little bit, and perhaps answer some questions I have jotted 
down here while listening to your testimony.
    Perhaps I would start with Mr. Kaiser Seyet, please. Can 
you give me an idea for the record of the amount of cross-
border travel that there is between the Xinjiang area where 
Uighurs mostly live and the surrounding countries?
    For example, some of the ones that you mentioned. Is it a 
common thing, in other words, for people legally and normally 
to cross borders to trade, or to visit family? Does that 
happen?
    Mr. Seyet. It is not very common. All cross-border visits 
are for business, for travel, or to see friends or family. This 
is all controlled by the Chinese Government.
    Mr. Foarde. So if you were a Uighur and you wanted to 
travel across border to one of the neighboring countries to, 
say, trade, you would need to get an exit permit, is that what 
you are saying, from the Chinese Government?
    Mr. Seyet. Yes. You would have to have a passport and exit 
permit.
    Mr. Foarde. So the Chinese Government can restrict the 
numbers of passports that are issued, for example, to Chinese 
nationals of Uighur nationality, and also control the exit 
permits.
    Mr. Seyet. Yes. Recently, the Chinese Government published 
that they made it easier for people to apply for passports and 
exit permits, but they have special rules and laws for the 
Uighur minority to get passports.
    For most people, if you are under 40, it is very hard to 
get a passport across borders. Usually, from what I know, to 
get a passport usually takes 2 years from application to 
approval.
    During these 2 years, the Chinese Government is going to 
check your background, if you have had any political problem or 
any other problems against the government, or anything.
    Mr. Foarde. Would the same questions be asked of a Chinese 
national of the Han nationality who might be living in Xinjiang 
Uighur Autonomous Region?
    Mr. Seyet. I do not think they have the same problem 
because the separatism and terrorism campaign only focuses on 
the Uighur nationality. I do not think the Chinese people have 
as hard a problem as the Uighurs.
    Mr. Foarde. So at least as far as you know, if a Han person 
wished to get a passport and an exit permit to visit a 
neighboring country for trade, that would also be much easier 
than it would be for a Uighur, is that correct?
    Mr. Seyet. Yes.
    Mr. Foarde. All right.
    Do you or your organization have any specific evidence of 
specific Uighurs that have been sent back from neighboring 
countries after they had gone across the border to ask for 
political asylum or shelter, or refuge of any sort?
    Mr. Seyet. Yes, sir. We contacted some people who returned 
from Kazakhstan, Kyrgyzstan, and Pakistan, and also Amnesty 
International reported such things documented on their Web site 
that we can provide to you.
    Mr. Foarde. So you have names and places? That would be 
very useful for us to have that information. If you could 
provide it, it would be very, very useful.
    Mr. Seyet. I will.
    Mr. Foarde. Can you give me an idea, generally, what 
happens to people when they are brought back to China after 
having been expelled from the country that they have gone to?
    Mr. Seyet. Usually they are held in a private, very secret 
place. Nobody knows what jail they are in. The Chinese 
authorities do not inform their relatives or friends. They 
torture them and ask what they did outside China.
    Mr. Foarde. But, again, do you have specific reports of 
that sort of behavior happening?
    Mr. Seyet. Yes.
    Mr. Foarde. All right. We would be interested in seeing 
that as well.
    Mr. Seyet. Also, Amnesty International has a report on the 
torture, and some of them are sentenced to death. Some 
disappear without any information. We do not know if they are 
alive or dead.
    Mr. Foarde. And their families have not been in touch with 
them. Have they been able to get legal representation, as far 
as you know?
    Mr. Seyet. I do not think they can get legal 
representation.
    Mr. Foarde. No lawyers, you think.
    Mr. Seyet. No.
    Mr. Foarde. This is, unfortunately, not an unusual 
practice.
    Let me ask a couple of final questions. Did the people that 
you are knowledgeable about who went home after being expelled 
forcibly from the third country, did they try to apply formally 
for asylum in the third country or did they try to contact the 
U.N. High Commissioner for Refugees when they were abroad?
    Mr. Seyet. Some of them applied in the third country for 
asylum. Some of them applied to the U.N. High Commissioner for 
Refugees. During this time, there was intense pressure from 
economic and political forces in central Asian countries, those 
central Asian governments helped transfer those people who were 
requesting 
asylum.
    So, from 1999, most Uighur people thought they could seek 
asylum in Pakistan, India, Kazakhstan, or Kyrgyzstan, but 
because of Chinese Government pressure, all of them were handed 
over to the Chinese Government and they were brought back to 
China.
    Uighur refugees do not ask for U.N. help because that takes 
a lot of time. In those neighboring countries they do not have 
status, they do not have a source of income. So, the Chinese 
Government finds it very easy to find them and take them back 
to China. Also, those countries are helping the Chinese 
Government to send them back to China.
    Mr. Foarde. Let me ask a final question. You mentioned in 
your statement the Shanghai Cooperation Organization. We are 
all very interested in this group and how it may be operating 
in practice across a broad array of issues, not just the human 
rights issues that we are interested in in the Commission.
    But do you have any evidence that there are formal 
agreements that have been reached between the Chinese 
Government and the governments of the neighboring countries 
that are part of the SCO, under that umbrella, to automatically 
send back potential asylum seekers to China?
    Mr. Seyet. On the SCO, they have contacts. When they formed 
the SCO, they say it is to address economic, political, and 
other border issues. They especially mentioned whether those 
countries were going to stand against terrorism and separatism? 
They are required to send over people and give the names to the 
Chinese Government, and their country can give them back names 
of terrorists. So, there is like a cooperation.
    Mr. Foarde. At least there is a statement about 
cooperation.
    Mr. Seyet. Yes, a statement.
    Mr. Foarde. But do I understand you to say that, as far as 
you know, there is no formal agreement between the Chinese 
Government and any other government on this, no formal treaty 
or other bilateral agreement, just the statements that have 
been in public, SCO documents?
    Mr. Seyet. I think there are statements in SCO documents.
    Mr. Foarde. Thank you very much. That is very useful.
    Let me turn to Mr. Cooper, if you do not mind. Dr. Wang 
Bingzhang's case, of course, has been a case of great concern 
to the Commission and to our commissioners. I think when you 
see our forthcoming annual report, you will see a serious 
discussion of his case.
    But I have some questions, just for the record, that will 
help us with facts. When did Dr. Wang leave China? Did he 
emigrate to Canada directly, or how did that work?
    Mr. Cooper. Yes, that is correct. I think he left at the 
end of the 1970s and emigrated, as you say, to Canada, and then 
went to New York shortly thereafter in 1982, I believe. 1981, 
1982.
    Mr. Foarde. Other than the circumstances of the kidnapping, 
detention, and subsequent arrest and trial of Dr. Wang, is 
there any hard evidence that the PRC authorities were informed 
in advance of the plans of Dr. Wang and his confreres to go to 
this place and consult with the labor leaders? Is there any 
evidence that somebody leaked that information?
    Mr. Cooper. Well, I think there is certainly evidence that 
somebody leaked that information by virtue of the fact that he 
ended up being accosted in a hotel room and carted across the 
border river into China. How that happened, I do not think we 
will ever be able to say with a 100 percent degree of 
certainty.
    I think it is fair to say, however, that in light of the 
unholy terror that an alliance such as the one that I described 
between the labor movement and the pro-democracy movement would 
have been struck in the minds of Chinese authorities, I think 
they would have stopped at virtually nothing to put a stop to 
the incipiency of that idea, that endeavor.
    Mr. Foarde. You anticipated my third question, which is 
basically, why would the PRC go to so much trouble for a small 
group of dissidents? I think the answer is that it is 
potentially a much larger group. In fact, I think it is correct 
to say that one of the things that worried the Party and 
government structure in the spring of 1989 was that you had 
this potential marriage between intellectuals, students, and 
workers.
    Mr. Cooper. That is right.
    Mr. Foarde. The only other part of the equation that makes 
the Chinese authorities even more anxious, I guess is the 
polite word to use, is when you have religious groups involved 
as well.
    Mr. Cooper. We have had ample witness of it in recent 
years, I am afraid to say.
    Mr. Foarde. I assume, and we have all assumed, that the 
plainclothes men that detained Dr. Wang and his group in 
Vietnam and got them across the border were security agents of 
some sort. But is there any formal evidence of that? I mean, 
anybody declaring themselves or showing an ID card, or anything 
like that?
    Mr. Cooper. Yes. We have looked at that as closely as we 
can. All we can say for certain, is that two of the members of 
that security force in plainclothes spoke with Chinese accents, 
one Mandarin and another provincial accent right across the 
border. So, that is as close as we can say that they were 
linked to China.
    But I think it is sufficient to say that that group then 
took them to the Chinese group of captors within 15, 20 
minutes, and that the boat was waiting for them, that the van 
was outside the hotel, and there was an elaborate planning 
process through which this kidnapping occurred.
    That took a degree of planning and sophistication that I 
think 
required sufficient funds and ample intelligence to suggest, as 
the ultimate life imprisonment of Wang Bingzhang rightly 
suggests, that there was a commitment on the part of the 
Chinese authorities to get this man, to bring him into China, 
and then to secure his confinement for here and ever after.
    Mr. Foarde. Do you have any sense that the type of meetings 
that Dr. Wang was having, or trying to have, along the border 
there with PRC-based activists, whether they be labor or other 
types of activists, is fairly common? In other words, is that 
happening a lot? There would be a group, in other words, 
conceivably of security agents paying special attention to the 
border area for that reason?
    Mr. Cooper. Not to my knowledge. This was, I think, a 
rarified example of cutting-edge activism. I do know that there 
have been cases of cross-border kidnappings in Korea in the 
northern areas, but this was the first time, to my 
understanding, that a Chinese dissident had ever been taken 
from a third country and carted back into China.
    Mr. Foarde. My understanding is that there is a fair amount 
of cross-border kidnapping for ransom, but it is a purely 
criminal conduct or enterprise, not related to anybody's 
political beliefs.
    Mr. Cooper. Yes. Hence, the idea that there might be 
perceived to be some legitimacy in describing those actions as 
kidnapping. But the fact remains, no family member was ever 
contacted about a ransom demand. That, I think, dispels that 
theory.
    Mr. Foarde. This is the first time that I personally had 
ever heard of any activities by overseas-based democracy 
activists trying to work through Vietnam to have this sort of 
contact with people based in the PRC. So, I agree that there is 
not much evidence that it is common.
    All that suggests that there was a leak of some sort, and 
this was kind of an organized, state security operation to grab 
these people, snatch them, and take them across the border into 
someplace where they could be put into police custody.
    Mr. Cooper. To say it succinctly, I think he was sold out 
and set up. I think that's the only explanation for how this 
came about in such a calculated and efficient manner.
    Mr. Foarde. One thing that I wondered a bit about the U.N. 
Special Rapporteur's report, is whether they were privy to any 
formal PRC court documents or transcripts in making their 
decision.
    Mr. Cooper. Yes. That is an interesting question. Not to my 
knowledge. I have seen the material that the PRC sent to the 
Arbitrary Detention Committee, and there was no information 
about that.
    Mr. Foarde. There was just a formal response, not a copy of 
a court transcript or anything.
    Mr. Cooper. A formal response from the Chinese Embassy, I 
think, in Geneva, the Chinese mission in Geneva. It is possible 
there is a deeper layer there that I did not see, but I can say 
that I have no knowledge of it.
    Mr. Foarde. It is probably a good conclusion no matter 
what, but it would be interesting to know if they had based 
that conclusion on anything else.
    Mr. Cooper. Have you seen the rapporteur's report?
    Mr. Foarde. Yes. Yes.
    Mr. Cooper. All right. You have seen it.
    Mr. Foarde. I have not read it personally word for word.
    Mr. Cooper. I have copies of it if you need it.
    Mr. Foarde. I have skimmed it. We have been studying it 
very carefully at the staff level at the Commission.
    Mr. Cooper. All right. Very good. Thank you.
    Mr. Foarde. This is very useful. We are all looking at what 
we might do for Dr. Wang. Just one last question. What is Dr. 
Wang's nationality at the moment?
    Mr. Cooper. Well, that may be an area of legal contention 
and concern. I think it is safe to say that he is a permanent 
U.S. resident.
    Mr. Foarde. So he has a green card.
    Mr. Cooper. Right.
    Mr. Foarde. Meaning his nationality stays as PRC, but he 
has permanent residence in the United States.
    Mr. Cooper. That is correct.
    Mr. Foarde. Well, as you know, as somebody who used to do 
this as both a consular officer and a diplomat for the United 
States abroad, the legal basis for making representations about 
detainees is much stronger when it is your own national and 
when both countries are parties to either a bilateral consular 
convention or the Vienna Convention on Consular Relations.
    It is more difficult when the detainee is a permanent 
resident, but still retains the nationality of another country, 
for example, in this case, China. But there is a moral basis on 
which to ask for help, and particularly when family members and 
relatives are U.S. citizens.
    The State Department frequently goes in and says, ``Look, 
we recognize that this man is not our national and that we may 
not have a legal right to have access to him or to demand 
anything under the Vienna Convention. But he is a long-time 
permanent resident, he has friends, family, and relatives who 
are U.S. citizens.''
    There is a relationship, and therefore we feel we have good 
cause to ask about his whereabouts and ask for access, and the 
other things that you might ask for for a citizen. I think that 
has been done in the case of Dr. Wang, unfortunately not 
successfully. But, very useful. All right.
    Let me go on to Ms. Marsh. First, a comment, then a 
question. Your initial presentation talked very eloquently 
about the problem of the Chinese authorities violating the PRC 
law and Constitution, as well as international human rights 
standards and norms.
    I just wanted to comment that this theme is something that 
you will see woven throughout our forthcoming annual report, 
because it is, at a high level of abstraction, one of the chief 
problems from a rule of law point of view.
    In many cases, the PRC has good laws, sometimes state-of-
the-art laws. But, on the one hand, the ability of individuals 
to enforce their rights is very limited, if present at all. At 
the other level, the authorities frequently just ignore, look 
the other way, or have the exceptions that you talked about 
carved out of these things.
    I would like to ask a question that you alluded to a little 
bit, but it would be useful to have your views on it in a 
broader way.
    What, in your mind, accounts for the virulence of the PRC 
Government's reaction against Falun Gong since, let us say, 
April 1999?
    Ms. Marsh. That is actually not an easy question to answer. 
I have certainly heard lots of explanations from various people 
closer to the situation than I. My sense is that the principles 
upon which Falun Gong is based--those are compassion, 
truthfulness, and forbearance--I think probably, especially the 
compassion, are very much at odds with the need for the PRC to 
control the population through the state-run media, the 
propaganda machines.
    There are all sorts of ways, some of which were certainly 
mentioned in my talk, that China uses to control the people in 
China. You cannot control people who prefer compassion, 
truthfulness, and tolerance to advancing up the political 
ladder.
    You cannot control people who are willing to be arrested 
and tortured. My understanding is, from the study I have done 
of the Cultural Revolution, of Tiananmen, and then this, is 
that if Mao Zedong starts the Cultural Revolution and somebody 
did not like it, no matter high up he was--and there are many 
examples--they were just arrested and tortured. So, many high-
ranking officials of the Communist Party were tortured. They 
are not alive any more. There are so many in house detention.
    So, to me, it was just not possible for Jiang Zemin and the 
Communist Party to maintain control over China with all these 
people liberating themselves with these noble principles.
    And it is sad, because these are the principles, to me, 
that are really constitutive of our humanity. These are the 
best that we can be. So to see those principles trampled upon 
because of a need to control people, it is very sad.
    Mr. Foarde. Is it not also true that, at least in the early 
1990s, there was both formal and tacit government support for 
Falun Gong.
    Ms. Marsh. Absolutely. Absolutely.
    Mr. Foarde. And a great number of government officials, 
members of the People's Liberation Army, and what have you, 
were practitioners of Falun Gong at some level?
    Ms. Marsh. Yes. It was so popular. I mean, that is what is 
so amazing to me, is that members of the Politburo, Jiang 
Zemin's family.
    I mean, everybody--this is what I have been told--was 
practicing Falun Gong, because it is based on ancient 
traditions of China, the gigong practice. It comes from an 
ancient cultivation practice and it really resonates in China. 
So, everybody was practicing it.
    There were awards given to Li Hongzhi, the different 
Chinese research societies were constantly acclaiming his 
books, they were the most popular books being read in China. 
Everybody was out there in the morning doing the exercises.
    In fact, for about 2 years--1997 to 1999--Jiang Zemin, who 
I think almost single-handedly started this persecution, 
although it certainly garnered support from elsewhere, told the 
Public Security Bureau to investigate Falun Gong, thinking that 
doing so would produce what he wanted. They did an enormous 
investigation and they said, ``No, there is nothing wrong. They 
are fine. They do not break the law, they do not do this. . .''
    So, it was popular. Through the ordinary sort of legal 
channels, Jiang could not stop it. That is why I think you had 
so many exceptions and all these notices and administrative 
orders, and so on and so forth.
    Mr. Foarde. So do I understand you to say that, as far as 
you know, the investigation into Falun Gong by the senior 
Chinese leadership predated the March 1999 demonstration?
    Ms. Marsh. Absolutely. Jiang Zemin had 2 years in which he 
was trying, through legitimate channels, to stop and stifle 
Falun Gong, and it did not work. Then he gave a speech in April 
1999 before the Politburo and basically just said, ``This is 
what is going to happen. We are going to get rid of Falun Gong, 
because they are a threat.'' He connected them to the West and 
to the United States, and all this kind of silly language. 
People opposed him.
    And I do not know these Chinese names, but the Premier [Zhu 
Rongji], I think, himself was totally on the other side, and 
met with the practitioners and said, ``Do not worry, this is 
not going to happen, you are not going to be banned.''
    But then Jiang Zemin, I think he had some high-ranking 
person in the Chinese Communist Party arrested and tortured 
badly. Then all of a sudden the Premier became silent and 
everybody became quiet because of memories of the Cultural 
Revolution. I mean, there is fear. I wonder myself, how would I 
fare under torture?
    Mr. Foarde. It is a very difficult question. Certainly if 
you look at any of the harrowing, but great books that have 
been written about Cultural Revolution experiences, it is very 
difficult for me as an individual, and I am sure a great many 
people, to understand how you would tolerate such treatment. It 
is very difficult.
    Let me ask you. If the particular anti-Falun Gong campaign 
was associated with Jiang Zemin, is there any reason to believe 
that the new leaders that have now arisen and been installed by 
the Party would either have less interest in a very aggressive 
persecution of Falun Gong, or possibly even would see the 
campaign as something that belongs to the old regime and try to 
back away from it?
    Is there any hope of that?
    Ms. Marsh. That is also a very difficult question and I am 
hardly an expert on politics in China. But it seems to me that 
it is conceivable that, if we could find a face-saving way to 
stop the persecution--I mean, the United States would have to 
play an active role in this--in which we could somehow approach 
the new regime and not force them to retract everything, 
because they are probably not prepared to do that, but find 
some way to just kind of stop talking about it. Just, let us 
stop talking about it and just let the people out, and so on, 
and so forth. That is a possibility.
    But my worry or my concern is, Jiang Zemin is still 
powerful. There is so much inter-political--I mean, I am 
reading the ``Tiananmen Papers'' now, and it is just so 
complicated as to who is what and who is on which side, and so 
on. Jiang still does exert some power.
    So, I think there needs to be some waning of his power, and 
perhaps that will happen. I know he is not popular with the 
Chinese people, but that does not seem to matter.
    Mr. Foarde. So it is hard to say whether or not there is 
any hope.
    Ms. Marsh. It is hard for me to say. There might be persons 
wiser than me who can say. But I know that I was personally 
trying to talk to some of the aides in Congress. Again, this 
was about 6 months ago. Senator Biden's chief aide, and I think 
he was also Senator Kerry's aide.
    I was suggesting that we might at least look into a face-
saving way to stop the persecution, because obviously face-
saving is so important in China. To have to say, ``Well, we 
made a mistake,'' I think that might be expecting too much.
    Mr. Foarde. Or we did it because the Americans forced us to 
do it.
    Ms. Marsh. Right. Something. Very, very sorry. Something to 
save face, but to stop it. I did file this lawsuit against 
former President Jiang and against quite a few other officials, 
so I am very close to the details of the persecution.
    It is very hard to know completely with your heart, your 
mind, and your soul to know that this is going on every single 
day, every single minute of the day, and just go about your 
business. It is hard. It is very hard.
    Mr. Foarde. Thank you so much. This is very useful.
    Ms. Marsh. Thank you.
    Mr. Foarde. Let me turn to a question or two to Mr. Wu Wei. 
Again, I do not want to put you on the spot because I know you 
are standing in for Ms. Huang. So, if you do not feel 
comfortable answering a question, by all means tell me and we 
will save it for her for the next time, because I am sure we 
will be seeing her frequently, as we always do.
    But I did want to go back into the themes in the statement 
about SARS and about the lack of freedom of the press, and how 
that in many ways exacerbated the seriousness of the SARS 
crisis last spring.
    Some medical experts say that SARS may, in fact, come back 
this fall. There is even more concern because, just in the last 
couple of weeks, local authorities in several places in 
Guangdong have permitted the sale, again, of civets and other 
animals that have been associated with new and different types 
of retroviruses, including the SARS virus.
    So my question really is, given that they have just had 
this experience where the government was very embarrassed 
because the epidemic spread very rapidly, and it was the lack 
of information that made it spread so widely and the 
suppression of information that was already available to 
journalists, is it more likely or less likely that, if SARS has 
a resurgence this fall or this winter, that the same sort of 
repressive muzzle will be put on journalists that want to 
report the facts about outbreaks and what have you?
    Mr. Wu. Yes, sir. Well, let me start to tell you a personal 
story. A friend of mine who is an Italian student was in China, 
in Beijing, studying Chinese back in the spring of this year.
    He and his Chinese friend did not know about SARS until the 
day when he received an e-mail from his family in Italy, and 
phone calls as well, to question about, what is going on in 
Beijing on the SARS issue? So, he certainly woke up.
    He went to the Internet and checked, I suppose, English or 
Italian language online newspapers and discovered the SARS 
crisis. He went back to his Chinese friend and told them about 
the SARS crisis in China. None of his Chinese-educated friends, 
college students, believed him. So, that is the degree of 
censorship and brainwashing in China, in Beijing, among the top 
university students.
    Now, your question is about the future, I guess, what is 
going to happen this fall?
    Mr. Foarde. Will there be the same type of restriction on 
reporting SARS information?
    Mr. Wu. There is no crystal ball. We cannot predict that. 
But we can say, in fact, the new Chinese leadership is the same 
as we saw before. That is, they have tightened, again, the 
information circulation. So I suppose and I expect the Chinese 
news media to not be reporting on SARS, as they did during the 
spring.
    Mr. Foarde. So it is more likely that we will see more of 
the same instead of learning the lesson.
    Mr. Wu. I suspect so, sir.
    Mr. Foarde. Unfortunate, indeed.
    Kaiser Seyet, Terri Marsh, Timothy Cooper, Wu Wei, thank 
you for spending your time with us this afternoon.
    If you would like, since we have a couple of minutes, I 
would invite you to make a final statement to sum up the things 
that you would like the people who read the record to remember.
    Maybe we would start with Mr. Seyet, if you would like.
    Mr. Seyet. You asked me how long it takes Uighur people to 
get a passport. Just for example, for my family, I have been 
here in the United States for 6\1/2\ years. My parents started 
applying for a passport 6 years ago and they have not gotten 
anything from the government.
    My mother is just a housewife. She does not do anything 
political. My dad is an electrical engineer and has nothing to 
do with politics. But it is because I am active here 
politically, so they have not gotten a passport yet.
    The second thing, about SCO, China has been pressing very 
hard on Central Asian countries. It is like, in Central Asian 
countries, China does not hesitate going to the addresses and 
arresting people by themselves. It is like a part of the 
Chinese terrorism police can go there. Sometimes they can 
arrest people by themselves and take them to China.
    The Uighur refugee problem is worse in Europe. People have 
been denied seeking asylum and have been returned due to 
Chinese Government pressure. We would like the U.S. Senate and 
House to pass a resolution to help Uighur refugees.
    If they do not give asylum, just do not give them back to 
China. China is also a member of the Security Council. They are 
not obeying the Convention on Refugees as a signatory. So, we 
would like to mention this to the Chinese Government to press 
and to not to torture and take them back and execute them. 
Thank you very much.
    Mr. Foarde. Thank you very much. Very useful.
    Terri Marsh.
    Ms. Marsh. Well, first, I would like to say that Mike 
Jendrzejczyk. I cannot pronounce his name.
    Mr. Foarde. Mike Jendrzejczyk. The late Mike Jendrzejczyk, 
unfortunately.
    Ms. Marsh. The Washington director of Human Rights Watch/
Asia said, ``Cloaking the campaign against Falun Gong in 
rhetoric about the rule of law does not give any great 
legitimacy to China's crackdown on Falun Gong.'' He urges that 
the ban and the crackdown be lifted and everybody be released 
immediately.
    I would supplement his remarks by urging everyone, not only 
the Commission, who knows quite well in this area, but the U.S. 
Government and the U.S. Department of State, I would single out 
the Administration, the Bush Administration, the U.S. 
Department of Justice, that all of us need, together, to do 
what we can to stop the persecution in China and to do what we 
can to seriously promote a rule of law in China as opposed to a 
rule by law.
    I think that by permitting China to continue to cloak the 
rule by law in a rule of law, we really foster an environment 
for the cultural revolution, for the tragedy of Tiananmen 
Square and for the latest crackdown against Falun Gong. Thank 
you.
    Mr. Foarde. Thank you very much. Also very useful.
    Mr. Cooper.
    Mr. Cooper. Again, I want to express my appreciation to the 
Commission, and to you in particular, for taking the time to 
listen to the dire case of Dr. Wang Bingzhang. I would like to 
remind the Commission that, even at this very hour, he sits in 
solitary confinement in a 4<greek-e>4 cell. He is not going 
anywhere. He is facing life in prison for crimes he did not 
commit.
    The Chinese Government offered no evidence whatsoever to 
prove their case that he committed any act of espionage, any 
act of terrorism. There was simply no evidence provided at all.
    The accusation, for instance, that he attempted to organize 
the bombing of the Chinese Embassy in Thailand was utterly 
refuted when an AP reporter called the Terrorism Department of 
the Thai Government and asked whether or not they had even 
heard of Dr. Wang Bingzhang, and they said, ``Absolutely not.''
    We do not know anything about these charges, anything about 
these suspicions. These were fabricated, trumped up charges 
that have no bearing to reality in any way, shape or form.
    The United Nations probed this case. They determined that 
Dr. Wang Bingzhang did not have any knowledge of the charges 
against him, did not have the right to legal counsel or the 
right to review his own arrest and detention, and that after 
the date of his original detention, he did not benefit from the 
right of the presumption of innocence, the right to adequate 
time and facilities for his own defense, the right to a fair 
trial by an independent and impartial jury, and on and on it 
goes.
    There is no question that he was run roughshod, that he was 
set up by, we assume, the Chinese authorities, since that is 
where they would most liked to have seen him, and that he has 
been denied all justice under law and under universal 
principles.
    So, again, we implore the U.S. Congress to take to heart 
his case, to take to heart the separation from freedom that Dr. 
Wang Bingzhang knows, and to support him via a Congressional 
resolution to exert all due influence on China to free him at 
the earliest possible date. Thank you.
    Mr. Foarde. Thank you very much.
    Mr. Wei, if you had a word or two on behalf of Huang Ciping 
and the organization, please go ahead.
    Mr. Wu. Yes, sir. I would like to raise two issues. The 
first, is the U.S.-based high-tech companies are transferring 
high-tech technology to China, and by doing so are helping the 
Chinese Government to increase the degree of information 
censorship.
    Second, I would like to remind Members of Congress that 
political reform and democratization in China is related to 
U.S. national security interests. Thank you.
    Mr. Foarde. That will conclude then, for today, our Open 
Forum. We will try to do another one of these probably after 
the first of the year.
    We will have our next activity on Monday the 22nd. As I 
said, I do not have a room yet. But as soon as I do, we will 
send out an announcement.
    Thank you all for coming this afternoon, and to our 
speakers for sharing their views and information with us. Good 
afternoon, all.
    (Whereupon, at 3:41 p.m. the open forum was concluded.)
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                   Prepared Statement of Kaiser Seyet

                           september 8, 2003

               Escalating Refoulement of Uyghur Refugees

    The Uyghur American Association is deeply concerned about the 
rising number of peaceful Uyghur dissidents being returned to the 
People's Republic of China. Although media attention has raised the 
deportation of Tibetan refugees from Nepal and caused governments to 
act, no such attention has been paid to the escalating phenomena of 
peaceful dissents being returned from Central Asian states and Pakistan 
under pressure from the Chinese government.
    Before the formation of the Shanghai Cooperation Organization 
(SCO), Chinese diplomats would bring accusations of criminal wrongdoing 
against Uyghur refugees and seek their deportation. Wanted posters in 
Chinese and the local language have been posted on the streets in many 
cities. The pressure employed against the refugees and their place of 
refuge can be summed up with this except from a 1996 internal Chinese 
Communist Party Document:

          ``Limit the activities of outside ethnic separatist 
        activities from many sides. Bear in mind the fact that Turkey, 
        Kazakhstan and Kyrgyzstan are the home-bases for the activities 
        of outside separatists forces. Through diplomacy, urge these 
        countries to limit and weaken the activities of separatist 
        forces inside their border. Take full advantage of our 
        political superiority to further develop the bilateral friendly 
        cooperation with these countries. At the same time, always 
        maintain pressure on them. Considering the ethnic separatism 
        activities outside of the border, carry out all necessary 
        dialog and struggle. Strengthen the investigation and study 
        outside of the border. Collect the information on related 
        development directions of events, and be especially vigilant 
        against and prevent, by all means, the outside separatist 
        forces from making the so-called ``Eastern Turkistan'' problem 
        international.''

Chinese Communist Party Central Committee Document Central Committee 
(1996) No.7 Record of the Meeting of the Standing Committee of the 
Political Bureau of the Chinese Communist Party concerning the 
maintenance of Stability in Xinjiang

    When the SCO was formed, official contacts started in the Central 
Asian war on terrorism. At that point, the campaign against 'East 
Turkistan separatists' had not been internationalized, but quietly, 
dissidents continued to be arrested and returned to face imprisonment, 
torture and even death, just for leaving the peoples Republic of China.
    After the events of September 11, 2001 and the beginning of the 
U.S. war on terrorism, Chinese government officials began to equate the 
peaceful expression of thought with terrorism. In many official Chinese 
government statements, terrorism and separatism appear side-by-side as 
crimes to be fought.
    The criminalization of peaceful ideas is not condoned by the U.S. 
Constitution nor any international body or agreement, yet such a tactic 
is used to repress dissent in countries that neighbor the PRC. The 
entire process should be viewed as an extension of the Chinese 
government Police State.
    The Convention Against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment provides that ``no State Party shall 
expel, return (`refouler') or extradite a person to another State where 
there are substantial grounds for believing that he would be in danger 
of being subjected to torture.'' The principle of non-refoulement is a 
basic right of all people that flee tyranny and oppression and clearly, 
according to the annual U.S. Department of State Human Rights Report, 
the People's Republic of China abused the rights of citizens accorded 
under their constitution. Abuses included instances of extrajudicial 
killings, torture and mistreatment of prisoners, forced confessions, 
arbitrary arrest and detention, lengthy incommunicado detention, and 
denial of due process. Such compelling evidence from the U.S. State 
Department merits attention to safeguard the human rights of people 
escaping oppression in the People's Republic of China.
    The Uyghur American Association recommends that the U.S. 
government, in its official dealings with Central Asian states, 
including Pakistan, Nepal, Kazakhstan and Kyrgyzstan,

<bullet> Reinforce the ideal of the rule of law, namely, the principle 
    of non-refoulement with regard to people escaping persecution and 
    oppression from the People's Republic of China;
<bullet> Raise concerns about the treatment of refugees and their 
    rights as guaranteed under the U.N. Declaration of Human Rights;
<bullet> Raise the issue of forced repatriations, the abuse of human 
    and civil rights before the proper U.N. bodies, and
<bullet> Press for meaningful reform and change within the People's 
    Republic of China such that so many do not feel compelled to flee 
    their homeland.
                                 ______
                                 

                   Prepared Statement of Terri Marsh

                           september 8, 2003

                     The Rule by Law in China Today

    According to Jeremy Cohen in his ``The Plight of Criminal Defense 
Lawyers,'' presented to this commission on July 26, 2002, China's 
entire criminal process is in need of radical reform. In his view, a 
``radical, long-run political restructuring would be necessary to bring 
the PRC's criminal process into compliance with [even] minimal 
international standards.'' A cursory look at the problems Professor 
Cohen identifies reveals at least two types. On the one hand, the 
practice of criminal law in China itself violates the body of Chinese 
law, which includes but is not limited to the Constitution, the Penal 
Law, Prison Law, and Police Law. For example, 
although both the Constitution and Police law prohibit interrogation to 
produce (enforced and hence false) confessions, police interrogation 
and torture is a fairly common practice in China, as illustrated in 
many of the Country Human Rights Reports published by our Department of 
State. Specific instances described include torture by electric shock 
and the shackling of hands and feet; confinement of practitioners in 
mental hospitals; use of excessive force in detaining peaceful 
protesters; the death of more than 200 practitioners while in police 
custody with many of their bodies bearing signs of severe beatings and 
torture.; and the cremation of bodies before relatives examine them. 
See, U.S. Department of State, Country Reports on Human Rights 
Practices--China (2000) Available at http://www.state.gov/g/drl/rls/
hrrpt/2000/eap/684.ht\1\
---------------------------------------------------------------------------
    \1\ Since 1999, the United States Commission on International 
Religious Freedom has Designated China as a country of particular 
concern. See, e.g., Report Of The United States Commission On 
International Religious Freedom, 25 (May 2002).
---------------------------------------------------------------------------
    On the other hand, in addition to Chinese violations of their own 
legal codes, the second type of problem identified by Professor Cohen 
has to do with the promulgation of rules, in the form of administrative 
orders, articles of legislation, notices promulgated by all sorts of 
entities and bodies, including even the courts. These create exceptions 
to the already drafted rules of law which put some disfavored group or 
class at a disadvantage in securing the rights the State acknowledges 
they have. In Jerome Cohen's piece, of course the disadvantaged are all 
of those accused of crimes, especially those accused of political 
crimes, and all of those trained to defend those accused of crimes--the 
criminal defense bar. In spite of the so called right to counsel 
afforded to all citizens, the People's Republic of China promulgated an 
exception for Falun Gong. As indicated in an announcement promulgated 
by the Judicial Bureau of Beijing, (see appendix), this notice as a 
practical matter denies all Falun Gong practitioners their 
constitutional right to legal counsel. Similarly, long after Falun Gong 
practitioners had been unlawfully arrested in China, the ``anti cult'' 
law was passed retroactively by the People's Congress to eradicate the 
practice by the label of evil cult. To up the anti even further, a 
third rule was promulgated in the form of a notice by the Supreme 
Court. It states that all persons who practice Falun Gong practice an 
evil cult. By such a notice, the Supreme Court has undermined not only 
the independence of the judicial branch of government, it has also 
undermined its modus operandi and raison d'etre--to hear cases and 
render rulings. Before trial, with or without a trial, if you practice 
Falun Gong in China, you are guilty as charged. With or without an 
attorney, the deck is stacked.
    The two above referenced types of problem identified by Professor 
Cohen are referenced in Ronald Dworkin's A Matter of Principle (1985 
Harvard University Press). Chapter two, ``Political Judges and the Rule 
of Law,'' is especially relevant since it distinguishes between two 
definitions of the ``rule of law.''
    There is the rule-book conception, which insists that the ``power 
of the state not be exercised against individual citizens except in 
accordance with rules explicitly set out in a public rule book 
available to all The government as well as ordinary citizens must play 
by these public rules until they are changed, in accordance with 
further rules about how they are to be changed, which are also set out 
in the rule book.'' Id at 11. Those who subscribe to this view tend to 
care less about substantive justice--are the rules fair, do they 
protect individual rights, is it feasible to believe that such rules 
will in deed is enforced. As narrow a conception as this is, there is 
not question that China has indeed violated the rule-book definition of 
the rule of law, not only during the Cultural Revolution, the tragedy 
at Tiananmen, but also, and most notably now during the latest 
persecution of Falun Gong. Those just stated above as well as those 
stated below are examples of this formulation.
    There is a second formulation, which permits us to further evaluate 
state law to see if it is consistent with even minimal international 
standards of law and, thereby permits us to distinguish between a rule 
of law, and the rules promulgated by, for example, the Nazis in WWII. 
This latter formulation additionally illustrates how in fact what is 
packaged in China as a rule of law, is in fact and indeed a rule by 
law.
    In this second more expanded formulation of a rule of law, Dworkin 
observes that ``Citizens have moral rights and duties with respect to 
one another and political rights against the State as a whole. This 
formulation insists, `That these moral and political rights be 
recognized in positive law, so that they may be enforced upon the 
demand of individual citizens through courts and other judicial 
institutions.' Id, p. 12. This second conception requires more--
including a judicial branch which operates independent of legislative 
and executive branches; an array of due process rights such as 
oversight of the judicial process itself, right to a fair trial, right 
to cross examine one's accusers etc. And of course a right for all to 
secure the rights the State acknowledges they have. In this 
formulation, the promulgation of new rules to deprive Falun Gong 
practitioners of their constitutional and legal rights itself signals 
that we are dealing with something other than the rule of law in China 
today.''
    As a China expert noted recently, what appears as a rule of law in 
China is in fact a rule by law. Unlike the former, the latter is 
characterized by the state's use of the law itself to disfavor groups, 
to single out groups for unfair punishment, or, as in China and Nazi 
Germany, to oppress, torture, exterminate or eradicate groups or 
classes of persons in ways that shock the conscience and cause one to 
wonder anew--how can we be so noble and so base, and all be of the same 
human stock?
    Actually it's important to note that a rule by law is nothing new 
in China. It was used to create and implement the Cultural Revolution. 
It was used to stifle the student democracy movement stated at 
Tiananmen. It is used to squash labor movements, any and all criticism 
of the government. Most notably and most recently it is used to deprive 
all persons who subscribe to the principles of Falun Gong of the right 
to think for themselves, the right to a moral conscience, the right to 
religious freedom, to freedom of speech, to assemble freely and 
peacefully, to appeal illegal laws of their legislature and farcical 
rulings of their courts. It is used and continues to be used to torture 
persons who refuse to relinquish any of the aforementioned rights not 
for 1 day, or two days, but endlessly for years on torture devices 
which can only bring tears to the eyes of those who truly contemplate 
what they are.
    But in its latest guise, it is especially troubling and pernicious. 
In the very beginning of the persecution of Falun Gong, it appears 
visibly and clearly when (1) By order of former President Jiang, the 
police arrest Falun Gong practitioners without legal ground, (2) The 
former president himself defines the crimes retroactively, by trying to 
persuade the French newspaper Figaro, that Falun Gong, a peaceful 
meditative form of cultivation, is instead an evil cult, (3) By 
executive order, the legislative branch passes the infamous anti cult 
law to legitimate the illegal arrests by outlawing whatever range of 
meanings are referenced by the over broad and unconstitutionally vague 
phrase ``evil cult,'' and (4) When the Supreme Court instead of ruling 
on cases, expounds on the nature of Falun Gong by issuing a notice 
declaring, at the behest of former President Jiang, that indeed Falun 
Gong is an evil cult, and therefore even before or without a trial, all 
who espouse its principles are guilty of criminal acts. Not very 
different from the Nazis forcing Jews to wear the yellow triangle to 
identify themselves as enemies of the state, and hence not deserving of 
the rights afforded its genuine members.
    Its beginning is replicated in its implementation. In early June 
1999, former President Jiang gave a speech to the Politburo of the 
Central Committee of the Chinese Communist Party wherein he creates the 
Office 6/10, a Gestapo organization mandated to usurp proper functions 
of all three branches of government, of important sectors of civil 
society, as well as private sector businesses and associations. 
Officials of this office are stationed in the appeals office where they 
are known to beat up FLG practitioners who attempt to file an appeal in 
accord with rights afforded to all citizens by the constitution. 
Officials of this office are stationed in schools, police stations, 
hospitals, mental hospitals, detention centers, labor camps, re-
education centers. They issue the orders to doctors to force feed Falun 
Gong practitioners who refuse to admit that their spiritual beliefs are 
corrupt. They order the prisons' guards to place Falun Gong 
practitioners in cells with the most violent criminals where they are 
beaten if not to death then to near death regularly. They are stationed 
above the Ministry of Foreign Affairs and instruct Ambassador staff, 
and those working abroad how most effectively to expand the persecution 
to those who practice Falun Gong here in the United States. Most 
pertinent herein, they too promulgate rules and the rules they 
promulgate are not only inconsistent with standards of common sense, 
decency, and morality, but they are also rules established and 
promulgated to systematically, efficiently and effectively persecute 
Falun Gong practitioners and eradicate the practice utterly from the 
mainland of China, once and for all.
    Finally, there are the sham show trials. According to an eyewitness 
of one such trial, after the government's only witness admitted he'd 
never met or heard of the defendant before the onset of his trial, the 
Judge without any evidence whatsoever still found him guilty as 
charged.
    According to Mike Jendrzejczyk, Washington Director of Human Rights 
Watch's Asia Division, ``cloaking this campaign in rhetoric about the 
`rule of law' doesn't give any greater legitimacy to China's crackdown 
on Falun gong . . . The official ban . . . should be lifted; the 
government's pronouncement that it is a true cult and that it must be 
suppressed must be rescinded. All Falun Gong members in detention, 
formally charged, or sentenced to labor camps for peaceful activities 
should be released immediately.'' Id.
    I would supplement those remarks by suggesting that we do all we 
can to promote the rule of law in China. That this Commission continues 
to do it can. Because a rule by law is dangerous not only for the harm 
it wreaks internally, but because as long as the rule by law is the 
norm, such atrocities as the Cultural Revolution, the tragedy at 
Tiananmen, and most unfortunately and notably the genocide it now 
perpetrates against Falun Gong will continue under the cloak of a rule 
of law.
                                 ______
                                 

                  Prepared Statement of Timothy Cooper

                           september 8, 2003

      The Kidnapping, Detention, Summary Trial, and Sentencing of

                           Dr. Wang Bingzhang

    Distinguished representatives of the Congressional-Executive 
Commission on China: My name is Timothy Cooper, and I am the executive 
director of Worldrights, a non-governmental organization dedicated to 
human rights advocacy worldwide. I have the honor today to speak to you 
about the shocking case of Dr. Wang Bingzhang, who was recently 
kidnapped, detained, summarily tried and sentenced to life in prison in 
China for crimes he did not commit. Unable to attend these hearings 
today, Dr. Wang's family, including his parents, brother, sisters and 
children, wish to convey their appreciation to this commission for its 
interest in Dr. Wang's dire and deeply troubling circumstances. For at 
this very hour, he languishes in solitary confinement in a Chinese 
prison cell, facing the prospect of living out the rest of his life in 
a 4<greek-e>4 foot cell.
    In many ways, Dr. Wang's story mirrors that of the thousands of 
other well-known and lesser well-known political prisoners, who have 
also confronted the brutal ire of the Chinese government for standing 
up for universal principles and world rights in the face of severe and 
sustained oppression, more frequently than not at the expense of their 
own freedoms, their own rights, and yes, even their own lives.
    But in other ways, Dr. Wang's case is uniquely situated. The 
government's calculated treatment of Dr. Wang appears to mark a new 
nadir in the annals of political oppression in China. Indeed, it is Dr. 
Wang's family's contention that the deliberate and unconscionable 
actions taken against him by the Chinese government crossed an 
important moral and political divide that should raise a series of red 
flags in the West and around the world about the direction China's 
human rights policies may be headed.
    It is for this reason that the U.S. government--the world's 
champion for the human rights--should not and must not turn a blind eye 
to the fate of Dr. Wang. Having himself stood tirelessly, if not 
heroically, for the civil and political rights of 1.2 billion of his 
own people in China for over 20 years as an exiled Chinese citizen and 
a permanent U.S. resident, we believe that it is morally incumbent upon 
the United States--and in particular the United States Congress--to 
stand with Dr. Wang in his greatest hour of need.
    In June 2002, Dr. Wang and his two companions, Yue Wu and Zhang Qi, 
flew to Vietnam to meet with mainland Chinese labor leaders in order to 
explore possible venues for cooperation between the overseas pro-
democracy movement and the rising labor movement. The strategic concept 
was to marry the head of the democracy movement with the body politic 
of the fledgling labor movement. Such a powerful marriage of political 
convenience would undoubtedly strike unholy terror in the hearts of 
Chinese authorities. It is therefore understandable that the Chinese 
government would stop at nothing to try to thwart the development of 
such a potentially potent strategic alliance.
    On June 27, 2002, Dr. Wang, Yue Wu and Zhang Qi were abducted from 
their hotel lobby by about ten men, posing as Vietnamese policemen, 
only a short time after meeting with a labor leader in the border town 
of Mongcai. According to Yue Wu and Zhang Qi, two of the men spoke with 
Chinese, not Vietnamese, accents. Told that they were wanted for 
questioning at the police station, they were taken to an awaiting van. 
Soon they realized they were not being driven into town, but out-of-
town.
    They arrived at the Beilun River, where Dr. Wang was forcibly 
removed from the van and beaten because he refused to board a boat that 
stood waiting for them. Forcibly taken aboard, they were escorted 
across the river and into China. Once on shore, the leader of the group 
revealed a picture he had with him of Dr. Wang. With satisfaction, he 
compared the picture with Dr. Wang's face. He had found his man, all 
right.
    Later, a new band of men arrived and took charge. This time they 
were all Chinese. Dr. Wang and the others were blindfolded and taken by 
car to a nearby hotel, where the ``kidnappers'' demanded a ten million 
dollar ransom. Naturally, Dr. Wang, Yue Wu and Zhang Qi carried no such 
sum. They provided their captors with family contact information, 
including all cell phone numbers. But no family members were ever 
contacted. No ransom was ever demanded.
    After being detained in the hotel with papered windows for about a 
week, Dr. Wang and his companions were taken to a Buddhist temple near 
Fangchenggang, in remote Guangxi province. There their ``kidnappers'' 
abandoned them, still bound and without warning. Moments later, the 
Chinese police arrived--in the words of the Chinese authorities--``to 
rescue'' them.
    But Dr. Wang, Yue Wu, and Zhang Qi found only continued detention. 
The three were kept in police custody until the following day when they 
were transferred to separate detention centers. There they were held 
incommunicado for over 5 months. All the while, the Chinese government 
denied any knowledge whatsoever of their whereabouts.
    In December, the government finally announced that it was, indeed, 
holding Dr. Wang and his two companions. Dr. Wang was charged with 
``espionage'' and terrorism.'' The others were set free. Yue Wu 
returned to Paris in December and Zhang Qi was placed under house 
arrest until her return to the United States in March.
    Meanwhile, Dr. Wang was summarily tried in a 2-hour, closed trial. 
His lawyer received the case only a week or so before the trial and 
stated that he had no experience in such cases. In February, Dr. Wang 
was sentenced to life in prison for his alleged crimes of ``espionage'' 
and ``terrorism,'' though no evidence was ever offered by the Chinese 
government to support its outrageous allegations. All the while, Dr. 
Wang has maintained his innocence. His appeal was later rejected and 
Dr. Wang was taken into solitary confinement, where he has remained 
ever since.
    In July 2003, however, the Office of the U.N. High Commissioner for 
Human Rights issued Opinion No 10/2003, regarding the case of Dr. Wang, 
Yue Wu and Zhang Qi. In its written opinion, the UN's Working Group on 
Arbitrary Detention concluded that, among other things, the detention 
of Dr. Wang, Yue Wu and Zhang was arbitrary and a violation of 
international law. It noted that during Dr. Wang's first 5 months in 
detention, he ``did not have knowledge of the charges, the right to 
legal counsel, or the right to judicial review of the arrest and 
detention: and that, after that date, he did not benefit from the right 
to the presumption of innocence, the right to adequate time and 
facilities for defense, the right to a fair trial before an independent 
and impartial tribunal, the right to a speedy trial and the right to 
cross-examine witnesses.'' Nor did the U.N. find any basis for China 
charges of ``espionage'' and ``terrorism.''
    It concluded its opinion by calling on China to take ``the 
necessary steps to remedy the situation of Wang Bingzhang and bring it 
into conformity with the standards and principles set forth in the 
Universal Declaration of Human Rights.'' In other words, it called on 
China to free him.
    Representatives of the Commission, Dr. Wang was trained as a lung 
surgeon. He earned his Ph.D at McGill University in coronary-arterial 
research. Yet, he chose to devote the best years of his life to 
promoting human rights and democracy for the people of China, famously 
stating that ``Medicine can only cure a few patients, but cannot cure 
the disease of a nation.'' Now--in ill health himself, suffering from 
depression, gastritis, varicose veins and Phlebitis, without the 
benefits of Western medicine, he faces the prospect of an interminable 
prison sentence in a 4<greek-e>4 ft. cell for crimes that he did not--
could not--commit.
    But as much as he requires medical assistance, Dr. Wang also 
requires the generous assistance of the U.S. Congress. Dr. Wang's 
family respectfully requests that this Congress pass a joint resolution 
on his behalf, calling on the Government of the People's Republic of 
China to release him on medical grounds at the earliest possible date, 
and to abide by the legal opinion rendered by the United Nations in his 
arbitrary detention case. We believe such a resolution would reaffirm 
America's commitment to human rights in China and honor a man who has 
dedicated his life to the freedom and human rights of so many others.
    Thank you.

                       Submissions for the Record

                              ----------                              


 Prepared Statement of Ciping Huang, Executive Director, Wei Jingsheng 
 Foundation and Human Rights Chair, Independent Federation of Chinese 
                     Students and Scholars (IFCSS)

                           september 8, 2003

                  No Press Freedom in China After SARS

    My name is Ciping Huang. Today, I am making a statement on behalf 
of the Wei Jingsheng Foundation and the Independent Federation of 
Chinese Students and Scholars, regarding the current news media and 
information channels being controlled by the Chinese government.
    Early last spring, the China press got unexpected world attention 
because of SARS. The initial cover-up by the government resulted in 
terrible consequences including panic and many deaths in China. 
However, only after the disease spread overseas and caused an 
international outcry, was the Chinese press loosened and allowed to 
give out the number of deaths and related health information, 
trustworthy or not. As a result, kindhearted people around the world 
have an increased hope for Chinese press freedom. As an old saying 
said: a loss may turn out to be a gain; the SARS storm might bring a 
positive reform to the Chinese press.
    Of course, the world should welcome each step of progress toward 
democracy and freedom, no matter how small the step might be, if only 
it is a sincere step. However, people must be wary of illusions or 
wishful thinking. Without a systematic guarantee in China, any step 
forward could be easily taken away by the government.
    The freedom of the Chinese press has long been a goal that Chinese 
people have pursued. During the 1989 Tiananmen democracy movement, many 
young people sacrificed their lives for this goal. For a short few 
days, the Chinese people thought they gained that freedom, only be 
crushed by tanks and the government propaganda machine later on. Now 
there are still many people both on the China mainland and abroad 
struggling hard to get even one private newspaper or magazine published 
in China. So far, has anything changed? The only one real voice to be 
heard in China is the voice from government. Non-governmental approved 
voices are cut and muted.
    The sad reality is: China has not gained more press freedom since 
SARS.
    Even during the seeming opened crack of reporting on SARS, very 
little attention was given to the Chinese government's decree to 
``severely punish the rumor spreaders.'' Several dozen people were 
arrested for spreading the news about SARS.
    In June 2003, the Chinese Communist Party Central Propaganda 
Department criticized more than 10 major well known newspapers and 
magazines, such as <Beijing Communication>, <Three-United Life Weekly>, 
<Finance> etc. The cited issues included SARS and the reporting on 
corrupted officials. After this criticizing, some ``sensitive 
articles'' had to be ``killed'' before publishing. Especially those 
articles reporting on Doctor Jiang (who first appealed to open truth on 
SARS) got tight censorship by the government and many articles were 
cut. Due to the new regulations, SARS reporting is not a free topic but 
has a very clear and disciplined line that the most journalists have no 
guts to cross. The forbidden topics also include: the North Korea 
nuclear crisis, the nuclear submarine 361 explosion case, and Zhou 
ZhengYi, the top corruption case in Shanghai. (See attachment 1.) \1\
---------------------------------------------------------------------------
    \1\ Attachments 1 through 5 appear on the Commission's Web site 
(www.cecc.gov) in Chinese.
---------------------------------------------------------------------------
    In recent months, the government has had more meetings to call for 
``The Reform of China Press and Publication.'' The proposals included 
cutting the number of totally controlled newspapers, clarifying the 
``Party's disciplines'' and emphasizing the purpose of propaganda etc. 
However, as Cai YongMei, The executive editor of Hong Kong's <Open> 
magazine (Kai1Fang4) analyzed: ``I think the government doesn't want to 
lose the control of media. Light issues and non-sensitive topics might 
get loosened, but serious topics, or those they think are principal 
issues will be held as tightly as before.'' (See attachment 2.)
    Last month, the veil over this ``reform'' was finally lifted. The 
Chinese government finally decreed their detailed regulations without a 
sign of real reform. These regulations demonstrated further the hard-
line face of the central government that tries to make a successful and 
strict control over the news media. In particular, the regulations ask 
for strict censorship, and include dismissing and appointing the 
leaders. (See attachment 3.)
    Also in the summer, the Chinese news media and universities and 
academic/research institutes received notices from the government 
clearly stating prohibitions to discuss certain issues, in particular 
modifying the constitution, political reforms, and the 1989 Tiananmen 
democracy movement.
    We want to emphasize that China has a long way to go toward real 
press freedom. The root of the problem lies in the system, which has 
been there for over half a century under the Chinese Communists' rule. 
The following facts are some of our highest concerns. The problems 
still exist after SARS.

    1. There is no real private press in China and no independent 
journalism under the Chinese Communists' one-party leadership.

    So far, except for some pointless papers and local small magazines 
(e.g. equivalent to ``how to do make-up''), China doesn't have a single 
newspaper or magazine owned by a non-government agent or company. The 
registration of a press is a very complicated and strict step. The 
government at any time can easily crush a newspaper or magazine agent/
company if it violates the government regulations, or even just 
displeases some officials.

    2. Internet Censorship is a serious abuse of the basic human right 
of ``right to knowledge.''

    If you are in China and open ``Google'' or ``Yahoo!,'' you won't be 
able to find many web sites that you can see in other countries. Since 
August 31 this year, Chinese government shutdown the search machine 
``Google'' in China again. Just before every political event, Internet 
become one more place for the Chinese Communists to tight their 
``strict strike'' control. According to latest report by Central 
Agency, the government has 300,000 people policing the Internet, 
including 30,000 professional work for the National Security 
Department, to monitor and filter news and e-mails, to shutdown web 
sites and to give warnings to people who make ``undesirable'' web pages 
or posts on the Internet. Unless technically specially handled, E-mails 
from dissidents such as me are often rerouted through the police bureau 
before reaching the intended recipients, and are often rejected and 
even be confiscated without acknowledgement. In some cases, the 
recipients are harassed, or interrogated by the secret police. It 
surely is amazing that while this government has failed to control 
``forbidden pornographic materials'' on the Internet, it is able to put 
a pretty good handle on the dissident voices and even just plain news.
    The censoring not only applies to the news and articles posted in 
foreign web sites, but also to local people who join ``chat rooms.'' 
Liu Di, a 19 year old college girl, has been detained for months 
because of some words and essays she posted in a chat room.
    Yet, this type of the censorship is just part of the integral 
policing system in China. As the other side of traffic, I was told by a 
friend whose sister worked to examine the mails from overseas that one-
third of all mails went through inspection, beyond even ``targeted 
mails.'' In addition, phone tapping is common and public knowledge in 
China, and is not just applied to the dissidents and activists.

    3. Brave journalists and liberal editors often get in trouble, and 
some are put in prison just because they report the truth or speak from 
conscience.

    While over all, Chinese people are the victims of the Chinese 
Communists' propaganda machine; Chinese news media workers are the 
direct victims. In the last 5 decades, many of them lost their freedom 
or even lives for it. One of my friends, Wu XueCan, who was an editor 
for People's Daily, was put in prison and tortured after the 1989 
Tiananmen movement for his effort to bring truth to the people.
    Many liberal editors and reporters got laid off or even put in 
prison for reporting on corrupted officials, on the common people's 
suffering, or just expressing (or even just allowing) a different view 
from the government. They make a long list. Here, I want to mention a 
few:

          (a) Gao Qinrong, a journalist who reported about corruption 
        on the irrigation system flaw in ShanXi Province, received 13 
        years in prison. (Attachment 4 is an article written by Yu Jie, 
        an established scholar in China, about Gao.)
          (b) Qi YanChen, editor, was prosecuted for ``spreading anti-
        government messages via the Internet'' by submitting articles 
        to places such as the pro-democracy electronic newsletter VIP 
        reference. He was sentenced 4 years.
          (c) Teng ChunYan, an American citizen and a Falun Gong 
        practitioner, received 3 years in prison for serving as a 
        source on Falun Gong for news organizations.
          (d) An Jun was the founder of the China Corruption Monitor. 
        His writings were used as evidence of anti-state activities and 
        he was sentenced 4 years. (Interestingly enough, An's verdict 
        was not announced until April 19, 2000, the day after the U.N. 
        high commission on human rights failed to pass a US sponsored 
        resolution to condemn Chinese human rights abuses.)
          (e) Jiang QiSheng, journalist and political dissident, just 
        finished 4 years jail time in May for his pro-democracy 
        articles including an essay to honor June 4 victims.
          (f) Huang Qi, Internet publisher and web host, is still in 
        prison for publishing stories about human rights abuses, 
        governmental corruptions, and June 4 Tiananmen.
          (g) Yang ZiLi, etc. (4 youths), was sentenced lately (after 
        SARS) for academic discussion.

    4. To survive one must to speak the Party's tongue.

    It is very common for editors to have to cut some ``sensitive 
sentences'' when they review articles in newspapers or magazines. The 
most sensitive parts are not pornography issues, but those related to 
the political issues. There is no evidence for a change in this 
situation.
    From very reliable channels, I know that the editors working in 
newspapers and magazines can only have part of their own minds, if they 
care about their life or their family's future. They consistently have 
meetings to ``listen to the government's opinion,'' that usually 
announce some ``important regulations'' of how to report certain 
sensitive events. ``Keep the same tone with Party'' is the first rule 
for all journalists in China. Some of my editor friends say that they 
don't have their own tongue but the Party's tongue.

    5. China has been rated ``the second worst country for freedom of 
press and speech.'' The bias, misleading, even false news serve for 
Chinese government's agenda.

    On sensitive issues, only the government will have the right to 
decide if the news can be opened to the public, and when and how. For 
example, the unemployed workers' unrest in Northeast China will be 
suppressed in any newspaper with the ``reason'' of ``not disturbing the 
stability of the country.'' Early this year, in my home town, Hefei 
City, when thousands students took to the streets to protest the 
wrongful deaths of their fellow students, no reports appeared for days 
in the official news media even though the city residents knew 
something happened because of the paralyzed traffic and angry crowd.
    Government events cannot be revealed on time without the Party's 
control. Most of them become ``top secrets.'' The Chinese people have 
little chance to know what their ``people's government'' does or will 
do. Even foreign correspondents based in China cannot get timely news--
they face routine surveillance and need special permission for leaving 
their city of residence.
    For important world events, even though some city people can watch 
the news from foreign satellite broadcasts (not very easily), most will 
be influenced by the media controlled to report only the news the 
government wants people to believe. For example, the reporting of the 
Iraq war was totally biased--Saddam became a ``hero'' in the reports. 
Of course, this case is only one of many illustrating how the 
controlled news media has been misleading many Chinese people in an 
effort to realize the government's own agenda. Dislike and even hate of 
America is on the agenda. One of the most noticeable expressions is 
that the news media becomes the government's tool to fan up 
``nationalism.'' Many more examples can be found that cover almost all 
important world events, such as the North Korea Nuclear crisis, Taiwan 
across the Strait, and the American pilots being shot down in HaiNan, 
China.

    6. The Chinese people don't trust the news if it is presented by 
the Chinese government.

    Chinese people do not have faith in the Chinese government. They 
always know that their government cheats. They do not trust the 
government and what it says. Yet, for fear of their lives, their 
freedom, and their families, most people could not and do not dare to 
voice their hope for a free press.
    During the beginning period of SARS, Chinese people, especially 
those living in the big cities such as Beijing, Nanjing, and Shanghai, 
relied on the news sent by their overseas relatives. Some of my friends 
who worked in the USA told me that they were very busy looking for SARS 
news and were sending it immediately back to China so that their family 
members would have a timely updated true picture of the cases.
    Those people who don't have overseas relatives usually rely on BBC, 
Voice of America, Radio Free Asia, or other overseas media since they 
have less confidence on their own government's report. Everybody knows 
the phrase ``In China, we only have one voice.''
    After SARS, Chinese people still do not have confidence in the 
government media, especially on political issues or other important 
issues.
    Attachment 5 is an article on the subject that was by an overseas 
Chinese that returned to China.

    7. Foreign Investment and Internet will not bring free press to 
China.

    Many foreigners, especially foreign investors, argue that their 
investment will bring freedom including press freedom to China. The 
Chinese government has also quietly encouraged such kind of notion, 
including making academics and Western politicians believe in it. On 
the other hand, Chinese government rightly pointed out that ``the News 
Media is a special enterprise that does not follow the rule of `who 
invests in it, owns it.' '' The government specifically stated that 
``the news media is a State enterprise'' which applies to all the 
newspapers.
    Similar ideas apply to the Internet. The Internet and advanced 
computer technology have become the tools for government monitoring and 
suppression of dissidence. It is a shame that a US company like Yahoo! 
has voluntarily cooperated with the Chinese government's requirements 
and made the guarantee to filter contents disliked by the government. 
It is more a shame for Western companies to work closely with the 
Chinese government to create the product ``Golden Shield'' which blocks 
information transfer and tracks addresses and messages to help make 
state policing the best in the world. (For detail about ``Golden 
Shield,'' please visit an article on DaJiYun at: http://
www.dajiyuan.com/gb/2/5/6/n188071.htm.) What is the difference between 
doing these things and the exporting of high military technology to 
China a few years ago?
    Here we urge the freedom and democracy loving American people and 
the US Congress to examine these issues and to prevent these 
moneymaking deals on the price of Chinese people's human rights and 
freedom.

    To summarize our statement, there is no press freedom in China, 
even after SARS. The support and effort from the outside world will 
always be necessary and important. But first, we must know the real 
picture and what is really happening in China. Any credence or wishful 
belief of press freedom coming soon in China is not only concluding a 
wrong judgment, but also might hurt the people who have been and will 
be sacrificing their lives for China's press freedom. The Wei Jingsheng 
Foundation and IFCSS wish you can carefully evaluate the situation 
based on valid facts and continuously push the Chinese government for 
the better.
    Thank you.
                                 ______
                                 

               Prepared Statement of Kery Wilkie Nunez\1\

                           september 8, 2003

                 The Persecution of Falun Gong in China

    Thank you for the opportunity to submit a written comment on the 
persecution of Falun Gong in China. In particular, I would like to 
discuss the detention and torture of American citizen Charles Lee.
---------------------------------------------------------------------------
    \1\ Kery Wilkie Nunez is a Falun Gong practitioner and a 
legislative director for a national Latino organization in Washington, 
DC.
---------------------------------------------------------------------------
    Dr. Charles Lee traveled to China in January of 2003. The moment he 
stepped off the plane, he was detained and beaten by Chinese 
authorities. He was later rushed through a show trial and ``sentenced'' 
to 3 years in prison for a crime he did not commit. On a previous 
business trip to China, Charles considered tapping into a local cable 
to expose the human rights violations against Falun Gong practitioners. 
He never considered sabotaging any TV or radio equipment (which is what 
he was accused of). Nor did he ever do a broadcast.
    From a 95-page letter that Dr. Lee managed to get to the U.S. 
Consulate only by means of an 8-day hunger strike, as well as from 
information provided by the U.S. Consulate in Shanghai, we understand 
that Dr. Lee has endured severe abuse while in prison.
    He was forced to wear smelly winter clothes on unbearably hot days; 
he was deprived of sleep for 3 days; he was handcuffed in a very 
painful position for over 72 hours. Police intentionally tightened the 
handcuffs into his flesh to make it more painful, leaving scars on his 
wrists. He was also handcuffed for 130 hours while trying to write his 
appeal to the Court. At least twice, he was force-fed (a type of 
torture that has resulted in the death of many Falun Gong 
practitioners). The Chinese authority intentionally left the tube in 
his body for 4 hours to torture him. And worst of all, the Chinese 
authority put tremendous pressure on Charles' elderly parents (his mom 
had leukemia) in an attempt to break Charles' will. Charles didn't want 
his parents to witness his suffering, as he was very concerned about 
their health.
    To understand why any Falun Gong practitioner would risk his or her 
life to broadcast human rights violations in China, one must first 
understand how China controls the media and fabricates lies to deceive 
the viewer into accepting the regime's viewpoint. China uses its state-
controlled media--print, radio, propaganda shows, Internet blockade, 
etc.--to spread lies about a very peaceful spiritual practice that has 
brought millions good health and inner peace. According to an article 
of July 23rd in The Washington Post, entitled ``China's Spiritual 
Outlaws,'' China makes accusations and uses the word ``cult'' in 
describing Falun Gong in order to sow confusion, suspicion, and 
indifference among outsiders. The article explains that Falun Gong does 
not meet the definition of cult. ``It does not coerce obedience, 
brainwash its members, gouge them for money or compel worship of its 
founder, Li Hongzhi. It doesn't wear down their egos, then build them 
up in the new image of the spiritually transformed.'' Yet, China's 
state-controlled media spreads rumors to the contrary, meanwhile the 
books are banned from the public.
    Meanwhile, the government pressures everyone in society 
(professors, companies, schools, neighbors, family members, etc.) to 
report on Falun Gong practitioners. Some Chinese people are deceived by 
the media and are misled to believe that they should report on their 
neighbors if they practice Falun Gong. What they don't know is that 
they are reporting on innocent people who may be sent to a torture 
camp. Torture of Falun Gong practitioners is well documented in the 
free world. Yet, there is no way to educate the Chinese public about 
this, as a person may lose his life for distributing a flier.
    Recently, we learned that Chinese authorities forced an abortion on 
a Falun Gong practitioner in her seventh month of pregnancy simply 
because she refused to give up her beliefs. She was restrained while an 
abortion-inducing drug was given to her. While abortion is relatively 
common in China, most Chinese citizens probably don't know about this 
baby, which struggled in its mother's womb for 40 hours before it died. 
Afterwards, the mother struggled to deliver the dead baby.
    Perhaps a small dosage of truth would affect the views of a 
seemingly indifferent populace. In fact, Falun Gong's broadcast's in 
China has allowed many Chinese citizens the opportunity to see both 
sides of the story and follow their own conscience.
    However, no one should have to risk his or her life to tell a 
story. It is my hope that, with the guidance of the CECC, the United 
States will play a key role in improving information exchange in China. 
I also hope that the rescue of Dr. Charles Lee and other Falun Gong 
practitioners from China will become a priority for the U.S. How the 
U.S. treats human rights issues will send a very important message to 
China's new leadership.

                                  <all>

</pre></body></html>
